No.
IN THE SUPREME COURT OF THE UNITED STATES
DONOVAN JONATHAN TILLMAN, PETITIONER
v.
STATE OF FLORIDA, RESPONDENT.
_____________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA,
FOURTH DISTRICT
_____________
PETITIONER’S MOTION TO PROCEED IN FORMA PAUPERIS
________________________________
CAROL STAFFORD HAUGHWOUT
Public Defender
GARY LEE CALDWELL
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561)355-7600; (561) 624-6560
gcaldwel@pd15.state.fl.us
jcwalsh@pd15.state.fl.us
appeals@pd15.state.fl.us

COMES NOW Petitioner, Jonathan Donovan Tillman, and
moves this Court, pursuant to Rule 39.1, Rules of the Supreme
Court, to declare him indigent and allow him to proceed in forma
pauperis in this cause, in particular to waive any filing fees. As
grounds therefore, Petitioner says:
1. Petitioner applies for a writ of certiorari to review the
decision of the District Court of Appeal of the Fourth District of
Florida affirming his convictions and sentences for sexual battery
and other felonies.
2. Petitioner was declared indigent throughout the state
court proceedings.
3. Petitioner has been incarcerated since his arrest in 2011
and has been indigent for all court proceedings since that time.
4. The state court below appointed the office of undersigned
counsel for Petitioner as an indigent party pursuant to section
27.51, Florida Statutes.
5. Federal law requires all courts of the United States to
allow commencement and prosecution of any suit without
prepayment of fees or costs upon the showing made above. 28

U.S.C. §1915(a).
6. Refusal to allow petitioner to proceed in forma pauperis
would deny him equal protection of the law, meaningful access to
the courts, and due process of law since he cannot otherwise get
the review to which a more affluent defendant would be entitled.
See Burns v. Ohio, 360 U.S. 252 (1959) (fees should be waived for
discretionary appeal by indigent); Smith v. Bennett, 365 U.S. 708
(1961) (fees should be waived for indigent prisoner seeking state
habeas relief).
WHEREFORE, petitioner moves that this Court declare him
indigent and allow filing and prosecution of his petition without
payment of any fees or costs.
Respectfully submitted,
CAROL STAFFORD
HAUGHWOUT
Public Defender
/s/ Gary Lee Caldwell
GARY LEE CALDWELL
Assistant Public Defender
Counsel of Record

